	
                             	
                             	
                             	
                             	
                             	
Audit	of	NARA’s	Intrusion	Detection	and	Prevention	Systems	
                   and	Incident	Response	
                              	
                              	
                OIG	Audit	Report	No.		13‐12
	
                              	
                              	
                    September	10,	2013		
	               	
Table of Contents 



Executive Summary ........................................................................................ 3
 

Background ..................................................................................................... 3
 

Objectives, Scope, Methodology .................................................................... 6
 

Audit Results................................................................................................... 9
 

Appendix A – Acronyms and Abbreviations ............................................... 26
 

Appendix B - Management’s Response to the Report ................................. 28
 

Appendix C - Report Distribution List ......................................................... 29
 
                                                                         OIG Audit Report No. 13-12


Executive Summary

Intrusion detection and prevention systems (IDPSs) detect, monitor, analyze, and prevent
possible malicious activity occurring in computer systems or a network. Incident
response is a process to analyze and resolve an incident to minimize adverse effects. The
National Archives and Records Administration (NARA) Office of Inspector General
(OIG) audited NARA’s IDPSs and computer security incident response process to
determine whether: (1) NARA’s IDPSs had been properly implemented and are
operating effectively; (2) appropriate logical and physical security, and environmental
protection controls are in place, and; (3) NARA’s computer security incident response
process is effective and efficient, including whether incident response staff are adequately
trained.

In general, it appears NARA’s IDPSs are operating effectively, and incidents are
appropriately handled. However, opportunities for improvement exist in areas including:

(a) logical security and configuration of the host intrusion prevention system;
(b) contract management and monitoring;
(c) incident response and incident reporting to United States Computer Emergency
Readiness Team (US-CERT); and
(d) physical security controls on the host intrusion prevention servers.

First, an excessive number of privileged user accounts existed on NARA’s centralized
host-based intrusion prevention system (HIPS)1 and anti-virus management application,
and the password policy was not systematically enforced for users at the application
level. This left the application, rule sets, and data within the application vulnerable to
inappropriate use, manipulation, or deletion. Also, not all machines connected to
NARANet report to the centralized HIPS and anti-virus management application, making
it difficult to assess and monitor the security status of the machines not reporting to the
application on a real-time basis.

Further, NARA had not effectively managed and monitored its contract with the Trusted
Internet Connections (TIC) provider. This resulted in unmet Acceptable Quality Levels
(AQLs) for a number of services; unclaimed service credits; and a disconnect among the
contractor, Designated Agency Representatives (DARs), and NARA’s IT staff in
transferring and exchanging information pertinent to the security of NARA’s IT
environment.

1
 A host-based intrusion prevention system is a type of IDPS that monitors characteristics of a single host
and the events occurring within that host for suspicious activity (NIST SP 800-94, February 2007; p.9).
                                            Page 3
                         National Archives and Records Administration
                                                              OIG Audit Report No. 13-12



Additionally, although network attacks evolve over time and are becoming more
sophisticated, there is no process at NARA to ensure internal or external training is given
to the Computer Incident Response Team (CIRT) so they remain up to date. Also, the
incident handling process was not always monitored and supervised properly, causing
delayed resolution and reporting of incidents. Approximately 75% of sampled computer
security incidents reportable to US-CERT were not reported on time.

As part of this audit, we also reviewed non-electronic, paper-based disclosure of
personally identifiable information (PII) incidents. OMB Memorandum M-06-19
specifies US-CERT reporting should include all personally identifiable information (PII)
incidents whether in electronic or physical form. Our review found a weakness related to
NARA’s handling of paper-based PII disclosure events, which is addressed in a separate
report (OIG Report No. 13-15).

Finally, opportunities to improve physical security controls exist at NARA’s computer
room at Archives II. Specifically: (1) the list of the individuals who have access to the
computer room had not been reviewed on a periodic basis; (2) visitor logs were
incomplete and had not been reviewed on a periodic basis; and (3) cables for certain
servers were poorly organized without the use of any cable management tools such as
labels and ties.

This report contains 18 recommendations which, upon implementation, will enhance
NARA’s ability to secure its IDPS devices and respond to computer security incidents
effectively.




                                         Page 4
                      National Archives and Records Administration
                                                                       OIG Audit Report No. 13-12


Background

Various organizations at NARA contribute to the security of its computing environment
and electronic data. IT Security (IT) is responsible for the overall security of NARA’s IT
environment. IT Operations (IM) manages NARA’s HIPS and anti-virus applications,
configuration of the network-based intrusion detection system (NIDS)2, and the Networx
Universal program3. Both IT and IM are sub-organizations under the Office of
Information Services (I). The CIRT, comprised of NARA’s IT Security and IT
Operations staff, performs computer security incident response and reports incidents to
US-CERT and works with other investigative agencies when necessary. In addition,
Business Support Services (B) oversees physical security and environmental protection
controls for NARA’s computing equipment stored in each NARA location, including the
IDPS management and database servers.

NARA also uses the intrusion detection/prevention and incident response services
provided by the TIC contractor in accordance with the Managed Trusted Internet Protocol
Services (MTIPS) under the United States General Service Administration (GSA)’s
Networx Universal program. The TIC contractor operates the NIDS and Security
Operations Center (SOC). NARA’s CIRT and the contractor’s SOC interact with one
another in detecting, analyzing, and resolving computer security incidents. The TIC
contractor also provides a co-location service for NARA-owned firewalls and hosts the
EINSTEIN4 enclave that includes the IDPS appliances maintained and operated by
United States Computer Emergency Readiness Team (US-CERT).

NARA is a subscribing agency of GSA’s Networx Universal program, and selected the
TIC contractor in October 2010. The contractor completed installation of the TIC at
NARA in July 2011. According to GSA’s Networx Service Level Agreement (SLA)
Management Guide, version 2.0, issued on April 30, 2009, it is the subscribing agency’s
role to: (1) review the Monthly Compliance Reports submitted by the service provider;
(2) identify discrepancies between the contract-required performance target and the actual
performance; and (3) apply for credit from the service provider for a failure to meet a
performance objective.


2
  A network-based intrusion detection system monitors network traffic for particular network segments and
analyzes the network activity to identify suspicious activity (NIST SP 800-94, February 2007; p.9).
3
  Networx offers managed security services through the MTIPS program, which complies with the Trust
Internet Connections (TIC) initiative (http://www.dhs.gov/managed-trusted-internet-protocol-services.
4
  The Einstein program provides an automated process for collecting, correlating, analyzing, and sharing
computer security information across the Federal Government to improve our nation's situational awareness
(http://www.us-cert.gov/government-users/tools-and-programs).
                                            Page 5
                         National Archives and Records Administration
                                                                              OIG Audit Report No. 13-12


US-CERT requires Federal agencies to report computer incidents in accordance with
specified timeframes that vary depending on the category and severity of the incident. As
of December 5, 2012, NARA had a total of 298 closed incidents in its incident
management system that were reportable or potentially reportable to US-CERT and
submitted between July 28, 2011, and October 11, 2012. Distribution of the incidents by
incident category and location of the ticket origination is shown on Table 1 below.

               Table 1: Distribution of Incidents by Category and Ticket Origination

                                 Disclosure    Malicious     Improper      Attempted                           Grand
     Site\Incident Category                                                               Investigation
                                   of PII       Logic         Usage         Access                             Total
    Archives I                                        10                                                              10
    Archives II                         1985          56               2              4                 5            265
    Carter Library                                     1                                                               1
    Dayton                                             1                                                               1
    Eisenhower Library                                 1                                                               1
    Hoover Library                                     1                                                               1
    Johnson Library                                    1                                                               1
    Philadelphia                                       2                                                               2
    Riverside                                          1                                                               1
    Spanish Lake                                      12                                                              12
    St Louis                                           1                                                               1
    Suitland                                           1                                                               1
    Valmeyer                                           1                                                               1
    Grand Total                          198          89               2              4                 5            298


Previous audit engagements between fiscal years (FYs) 2005 and 2012 identified
weaknesses in NARA’s IDPSs and incident response process. These weaknesses
included: (a) lack of host-based sensors to detect intrusions (OIG Audit Report No. 05-
09, dated April 1, 2005); (b) inconsistent incident response approaches among the
incident response team (Mandiant’s Incident Response Program Enhancement Gap
Analysis, dated May 17, 2010); (c) partially deployed centralized HIPS and anti-virus
management system (Mandiant’s Incident Response Program Enhancement Gap
Analysis, dated May 17, 2010); (d) lack of a process to manage and monitor the Service
Level Agreements (SLAs) associated with its Networx contract (OIG Audit Report No.
11-17, dated September 30, 2011); and (e) open, unsecured network topology (IMRI’s
Network Discovery and Assessment Report, dated August 27, 2012).


5
  OMB Memorandum M-06-19 specifies US-CERT reporting should include all PII incidents whether in
electronic or physical form. Table 1 may include computer-based, electronic PII disclosures caused by loss
or disclosure of encrypted or unencrypted PII data, and paper-based PII disclosures caused by mailing
incorrect military/civilian records to the requesters. Archives II originates PII-related tickets for all offices.

                                              Page 6
                           National Archives and Records Administration
                                                                       OIG Audit Report No. 13-12


Objectives, Scope, Methodology

The objective of this audit was to determine whether: (1) NARA’s IDPSs had been
properly implemented and are operating effectively; (2) logical and physical security and
environmental protection controls are in place to appropriately safeguard NARA’s IDPS
devices and the data within them; and (3) NARA’s computer security incident response
process is effective and efficient, and the incident response staff are adequately trained.
Additionally, we included a review of the controls in place at NARA’s TIC provider over
the IDPS and incident response process in our audit.

To accomplish our audit objective, we reviewed National Institute of Standards and
Technology (NIST) Special Publications 800-53 “Recommended Security Controls for
Federal Information Systems and Organizations,” Revision 36, August 2009; 800-94
“Guide to Intrusion Detection and Prevention Systems (IDPS) (Draft) ,” Revision 1, July
2012; and 800-61 “Computer Security Incident Handling Guide”, Revision 2, August
2012. We also reviewed previous audit and review reports including OIG Report No. 05-
09 Audit of NARA’s Intrusion Detection System, dated April 1, 2005; OIG Report No.
10-07 Audit of NARA’s Network Infrastructure, dated April 28, 2010; OIG Report No.
11-17 Audit of the Trusted Internet Connections Initiative at NARA, dated September 30,
2011; GAO’s report on NARA’s information security, dated November 2010; Mandiant’s
Incident Response Program Enhancement Gap Analysis, dated May 17, 2010; and OIG
Report No. 12-11 Information Management Resources, Inc. (IMRI’s) Network
Assessment Report, dated August 27, 2012.

We judgmentally selected a sample of 80 security incidents that were reportable or
potentially reportable to US-CERT, and were opened between October 2011 and October
2012. We reviewed the sampled incident reports and email communications from/to US-
CERT and the contractor to determine whether appropriate actions were taken to resolve
and report the incidents effectively and efficiently.

We interviewed representatives of the Office of Information Services (I) and NARA’s
main IT contract, the IT and Telecommunications Support Services (NITTSS) contract,
and obtained and reviewed supporting documents as available and necessary. These
supporting documents included, but were not limited to, policies and procedures, network
diagrams, screenshots, physical and logical access lists, sample computer security
incident reports, the Networx contract, Networx SLA Management Guide issued by GSA,
the TIC contractor’s Monthly Compliance Reports, and third-party evaluation reports for

6
 NIST SP 800-53, Revision 4, was issued in April 2013, which was after the fieldwork for this audit was
substantially completed.
                                            Page 7
                         National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


the TIC contractor issued by Department of Homeland Security and an independent
public accounting firm. We visited two of the TIC contractor’s data center facilities
located in Sterling, VA, and had conference calls with individuals at the contractor’s
Network Operations Center (NOC) and Security Operations Center (SOC), located in
Arlington, VA, and San Diego, CA, respectively. We also visited one of NARA’s
computer rooms at Archives II to assess the physical security of NARA’s in-house host-
based intrusion detection system servers.

Our audit work was performed at Archives II in College Park, MD, between October
2012 and June 2013. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.




                                        Page 8
                     National Archives and Records Administration
                                                                           OIG Audit Report No. 13-12


Audit Results


1. Logical Security of the Host-Based IDS (HIPS) Needs to be
   Strengthened
Overall, we found the centralized HIPS and anti-virus management system (the system)
appeared to function effectively. It uses the “pull” method7 to update the HIPS and anti-
virus signatures on a daily basis, using a digital signature algorithm signature verification
system for data integrity. When events occur which the system cannot automatically
handle, it sends a notification email to NARA’s IT security contractors with event details
including the source Internet Protocol (IP) address, threat name, and detecting product
name(s). The system can generate many types of queries and reports, such as a report
including the signature update status of the servers and workstations. The management
server and database server of the system reside on a Virtual Local Area Network
(VLAN), and users log on to the system using a HTTPS connection to secure the
communication.

However, a number of issues may prevent management from adequately securing the
system, the machines managed through the system, and the machines not connected to
the system. Specifically, we found there are too many super users, password parameters
do not exist at the application level, the rule sets within the system had not been
considered for customization, and only some of the machines connected to NARANet are
configured to report to the system. These issues exist because management relies heavily
upon the network-based intrusion detection system (NIDS) provided by the TIC
contractor and had put little emphasis on adequately securing the centralized HIPS and
anti-virus management system and maximizing the use of the system. As a result, these
security issues present the risk of: (1) the users’ accounts and the data within the system
being compromised; (2) security events not being detected and prevented in a timely
manner; and (3) being unable to assess the security status of the machines not reporting to
the system on a continuous, real-time basis.

Too Many Super Users

NARA’s Enterprise Architecture requires, in accordance with the Access Control (AC)
family of the NIST Special Publication 800-53, that for data requiring moderate or high

7
  Pull is a style of network communication where the initial request for data originates from the client, and
then is responded to by the server.
                                             Page 9
                          National Archives and Records Administration
                                                                          OIG Audit Report No. 13-12


confidentiality, the NARA system owner shall employ the concept of least privilege.
Least privilege only allows authorized access for users which are necessary to accomplish
assigned tasks in accordance with NARA missions and business functions. System
owners shall also limit authorization for super user8 accounts on the information system
to designated system administration personnel.

Within the centralized HIPS and anti-virus management system, we found that nine of the
10 users had been granted global administrator rights. According to the product guide for
the system, the permissions exclusive to global administrators include: (a) creating,
editing, and deleting source and fallback sites; (b) changing server settings; (c) adding
and deleting user accounts; (d) adding, deleting, and assigning permission sets; and (e)
importing events into the database and limiting events stored there. The NARANet
Information System Security Officer (ISSO) stated the global administrator rights were
required to run queries and reports. However, our review of the product guide found a
regular user could be assigned to a permission set that allows the user to run queries and
reports.

Granting global administrator access to an excessive number of users presents the risk of
rights being abused by one or more users and undesirable changes made to user accounts,
rule sets, and other configurations. Those changes may result in: (1) a valid user unable to
log on to his/her account or unable to access certain functionalities necessary for their job
responsibility; (2) an intrusive attack going undetected or unanalyzed; and (3) diminished
productivity due to the need to reconfigure the system to its previous state.

Nonexistent Password Parameters

NARA’s Enterprise Architecture requires, in accordance with the Identity and
Authentication (IA) control family of the NIST Special Publication 800-53, that for all
data, the information system shall enforce minimum password complexity of a case-
sensitive, 8-character mix of upper case letters, lower case letters, numbers, and special
characters, including at least one of each. It also requires that the information system
enforce at least a four-character change when new passwords are created, encrypts
passwords in storage and in transmission, enforces password minimum and maximum life
time restrictions from one to 90 days, and prohibits reusing the previous five passwords
for unclassified information systems or 10 passwords for classified information systems.

Although NARA’s centralized HIPS and anti-virus management system requires a
username and password to log in, it does not systematically enforce any password
8
 A super user, or a system administrator, is an account that has access to all files and can execute any type
of command within the system. Global Administrator accounts within the centralized HIPS and anti-virus
system are considered super users because they have read and write rights to all operations of the system.
                                             Page 10
                          National Archives and Records Administration
                                                             OIG Audit Report No. 13-12


parameters including length, complexity, and reuse restriction at the application level. We
requested a read-only user account for the system and attempted to change the password
to one as simple as a “0.” The system accepted the password. Also, we were able to
change the password back to the original password without any restriction for reuse.
According to the NARANet ISSO, the capability to enforce password parameters does
not exist within the system, which is a COTS (commercial off-the-shelf) limitation.
However, our review of the product guide found there is an option to configure the
system server to allow users to log on using Windows authentication, through which
stronger password parameters could be enforced. According to the Chief Information
Security Officer (CISO), the mitigation NARA had been depending on was a claim
people who have accounts on the system are believed to be “trusted users,” who could be
expected to practice good password discipline.

We inquired with the NARANet Information System Security Officer (ISSO) whether
passwords were encrypted within the system. According to NARA Directive 804.8, the
ISSO has the responsibility to ensure the appropriate operational security posture is
maintained for IT systems and programs. NARA’s Enterprise Architecture requires
passwords to be encrypted in storage and in transmission. The ISSO should be aware of
the requirement, and ensure the systems they manage are appropriately configured to
meet the security requirements. However, the NARANet ISSO was unable to answer
whether the passwords were encrypted. Not enforcing strong password parameters and
password encryption exposes the user accounts to the risk of being compromised, and
critical data necessary to investigate intrusive attacks within the system being
manipulated or deleted by an unintended user.

During this audit, we communicated the issue of unenforced password parameters to
some of the key IT Security personnel, including the NARANet ISSO and CISO.
According to the CISO, an option to implement more vigorous password policy is to have
the user accounts authenticate to the Novell e-Directory. According to CISO, he had
notified the NITTSS contractor to expect a request for a technical recommendation on
this implementation.

Customization Needed on HIPS Rules

According to NIST Special Publication 800-94, most IDPSs require at least some tuning
and customization, such as setting the prevention action to be performed for particular
alerts, to improve their detection accuracy, usability, and effectiveness. NARA utilizes
the vendor’s default “Basic Protection” option for its HIPS. According to the evidence
presented, the Basic Protection option prevents events whose signature severity level is
“High” but ignores any events with signature severity level of “Medium”, “Low”, or
“Information”. There are other protection options available including “Enhanced
                                          Page 11
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


Protection” and “Maximum Protection” within the system. The Enhanced Protection
prevents events with signature levels of High and Medium, and the Maximum Protection
prevents events with signature levels of High, Medium, and Low. According to the
NARANet ISSO, NARA decided to adapt the vendor’s default protection option and did
not consider implementing the other options. Selecting the option that only prevents the
“High” events may not detect or prevent some of the actual intrusive attempts that could
potentially have critical impact on the affected machine, the data within the machine, and
the network to which it is connected.

Centralized Management System Not Fully Deployed

According to NIST Special Publication 800-94, organizations should consider using
multiple types of IDPS technologies to achieve more comprehensive and accurate
detection and prevention of malicious activity, with lower rates of false positives and
false negatives. Also, for most environments, a combination of network-based and host-
based IDPS technologies is needed for an effective IDPS solution. In Mandiant’s Incident
Response Program Enhancement Gap Analysis conducted in 2010, Mandiant
recommended NARA deploy the HIPS application to all NARA Windows systems in all
domains, and deploy the centralized HIPS and anti-virus management system to all
NARA Windows systems (servers, workstations, and laptops) in all domains. We found
the HIPS application is installed on the machines with Windows platforms that are
connected to NARANet. According to the NARANet ISSO, the non-Windows-platform
machines connected to NARANet have the antivirus software installed, but not the HIPS.
We also found that not all of the systems connected to NARANet interact with the
centralized HIPS and anti-virus management system to report events and receive
signature updates.

NARA has a number of systems not reporting to the centralized HIPS and anti-virus
management system, including
                                                                 are the systems critical to
achieving NARA’s mission as the nation’s record keeper, and the FIPS 199 Risk Impact
Level of these systems for FY 2012 was “High.” According to the Senior IT Security
Specialist, these systems pass through the TIC contractor’s network-based intrusion
detection system (NIDS) and NARA’s internal firewalls to pass and receive external
traffic. However, these systems do not report to the centralized HIPS and anti-virus
management system, making it difficult to continuously monitor the security status of the
machines (e.g., whether an anti-virus program is installed and operating on the machine)
or to centrally manage signature updates and event logs. Moreover, the FY 2012 FISMA
evaluation revealed NARA had not developed and implemented fully integrated and
responsive continuous monitoring and auditing capabilities allowing the organization to

                                         Page 12
                      National Archives and Records Administration
                                                                        OIG Audit Report No. 13-12


manage risk more effectively and efficiently. With the lack of a fully integrated and
responsive continuous monitoring process for security of NARA’s information systems,
NARA is under the risk of compromised systems not being promptly detected and
resolved.

Recommendations

We recommend NARA’s Chief Information Officer:

    1.	 Evaluate the access requirements each user needs to perform their job
        responsibilities, limit the global administrator privilege to only those whose job
        responsibilities require the exclusive permissions, and establish permission groups
        allowing users to access limited reports or functionalities within the system.
    2.	 Systematically enforce password parameters for system users at the application
        level consistent with NARA’s Enterprise Architecture password requirements.
    3.	 Consider re-evaluating the rule sets currently in use by the system for detection
        accuracy and customizing them to potentially reduce the number of intrusive
        attempts going undetected.
    4.	 Consider conducting a cost-benefit analysis on deploying the system to all NARA
        unclassified systems connected to the network.

Management Response

Management concurred with the recommendations.

2. Contract Monitoring for MTIPS Needs Improvement

NARA is a subscribing agency of GSA’s Networx Universal contract, through which
NARA selected a provider for its Trusted Internet Connections (TIC) services. According
to GSA’s website, the Managed Trusted Internet Protocol Service (MTIPS) program
provides managed security services compliant with Trusted Internet Connections
initiatives. NARA’s TIC contractor started providing services in July 2011. From January
2012 to December 2012, NARA paid a total of $3,236,853.26 (a monthly average of
$269,737.77) for the entire contract.9

OIG Audit Report No. 11-17, Audit of the Trusted Internet Connection Initiatives at
NARA, dated September 30, 2011, revealed that a process had not been developed to


9
  The services provided by the contractor include co-located hosting of NARA’s MTIPS devices,
configuration/rule change management, intrusion detection/prevention security event notification, and
security incident reporting to NARA and US-CERT.
                                            Page 13
                         National Archives and Records Administration
                                                             OIG Audit Report No. 13-12


monitor the contractor’s performance. We found the process for monitoring the
contractor’s performance is still yet to be fully developed. We also found there is a
disconnect among the contractor, Designated Agency Representatives (DARs), and
NARA’s IT staff in regard to how some of the contractor’s responsibilities are being, or
should be, performed. This occurred because NARA relies heavily on GSA’s monitoring
and accreditation process, and had not developed a more vigorous contract monitoring
and management process. As a result, we found the following, which are discussed in
more detail in the next sections:

      The actual performance data for a MTIPS service was not included in the
       contractor’s Monthly Compliance Reports for the entire period reviewed (January
       2012 through December 2012);
      There were at least two instances within the period reviewed where the
       Acceptable Quality Levels (AQLs) were not met by the contractor, for which
       NARA could have requested credits; and
      NARA’s key IT Security staff was not aware the intrusion prevention capability
       was not enabled within the IDPS device for NARA’s network.

Contract Management and Monitoring Process Not Fully Developed

In general, quality assurance surveillance plans should be prepared in conjunction with a
contract’s statement of work. The plans should specify all work requiring surveillance,
and the method of surveillance. NARA had prepared the Standard Operating Procedure
(SOP) for TIC SLA Monitoring. However, it did not include the designation of the
monitoring duties to specific individuals or offices. According to the DARs for the
contract, the monitoring duties had not been formally assigned and communicated. We
also found that, although the contractor started providing the TIC service for NARA in
July 2011, a number of the key IT Security staff at NARA, including the Chief
Information Security Officer (CISO and Deputy CISO, had not visited the contractor’s
data centers, network operations center (NOC), or security operations center (SOC) for
contract oversight purposes.

According to the CISO, NARA had been relying heavily on the fact the contractor was a
vendor approved by GSA, and Networx is a GSA-managed contract. However, the
contract indicates it is the subscribing agency’s role to provide oversight for the
contractor’s performance. Further, the lack of a complete and comprehensive contract
monitoring process resulted in incomplete information on the Monthly Compliance
Reports, and unmet Service Level Agreements (SLAs) going undetected and undisputed
(more details are discussed in “Monthly Compliance Reports are Not Fully
Reviewed” below).
                                        Page 14
                     National Archives and Records Administration
                                                            OIG Audit Report No. 13-12



Furthermore, there is a worksheet called a “SAN-TAN (Storage Area Network – Tape
Area Network), which describes the server backup and tape storage procedures specific
to each subscribing agency. A copy of the worksheet should be available via NARA’s
DARs. However, neither the DARs nor the IT Specialist who was involved in the
installation process was familiar with the worksheet, and neither could provide a copy.
According to the CISO, there was also a Memorandum of Understanding (MOU)
between NARA and the contractor which described the security incident alerting rules.
Although we contacted a number of individuals including the CISO, NARANet ISSO,
and a DAR for the contract, none of the individuals were able to locate and provide a
copy of the document. We also noted that network-based intrusion prevention is not
enabled for NARA’s network environment. However, NARA’s Senior IT Security
Specialist was not aware it was not enabled. According to the IT Specialist involved in
the TIC installation, there was additional cost associated with enabling intrusion
prevention and NARA chose not to receive the service. However, this information was
not properly communicated to key IT Security staff.

Moreover, there was an event in May 2013 with the attributes
                         According to the NITTSS Security Team Lead, the attack
                                            and was thwarted by the TIC provider’s
UTM device. However, per inspection of the screenshot including the rule set for the




Monthly Compliance Reports Not Reviewed in Full

According to the GSA Networx Service Level Agreement (SLA) Management Guide,
GSA recommends agencies review the Agency-Specific SLA Monthly Compliance
Reports. The agency can then identify discrepancies between the contract-required
performance target and the actual performance, apply for credit within six months, ensure
receipt of SLA credit within two billing cycles, and escalate any unresolved SLA issue to
GSA.


                                        Page 15
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-12


From January through December 2012, efforts were made to review the Monthly
Compliance Reports, along with other internal reports, and submit credit requests for
network outage incidents. However, information on the reports for other services had not
been reviewed for completeness and accuracy, resulting in: (1) undetected missing actual
performance values for a product for the entire period reviewed; and (2) unapplied SLA
credits for at least two instances.

 “MTIPS – Transport Collection and Distribution” is a product listed on the Monthly
Compliance Reports, where the contractor’s performance and availability of security
incident reporting to US-CERT are measured. We found the actual availability and
performance data were not included on the reports for the entire period reviewed
(December 2011 was the last month where the actual data were included on the report).
According to the contractor, the data was missing due to an issue with the contractor’s
database inventory which led to a failure to automatically populate the data on the
reports. However, NARA had not contacted the contractor regarding the missing data so
the reports could be corrected. NARA currently does not have any other mechanism to
measure if the contractor’s security incident reporting was performed or made available
within the Acceptable Quality Levels (AQLs). Therefore, not reviewing this section of
the reports resulted in potential loss of SLA credits and inability to confirm whether
security incident reporting was performed in accordance with contract requirements.

Additionally, the contractor’s actual performance values for other products had not
always met the AQLs. However, NARA had not been actively reviewing the reports for
all unmet AQLs, nor had they developed a process to identify the cause of and solution
for the unmet AQLs. As a result, corresponding SLA credit request forms were not
submitted for those unmet AQLs. At least one of the Key Performance Indicators (KPIs)
pertinent to security of the network had not met the AQL for two consecutive months
during the period reviewed. In April and May 2012, the KPI “Event Notification” for
medium priority under the Managed Firewall Service had actual performance values of
7.25 hours and 5.50 hours, respectively, which were not within the AQL of 4.0 hours.
According to the contractor, this KPI is defined as the time taken between the detection
of an event from the firewall and reporting the event to the subscribing agency. Reporting
firewall events to the agency within the AQL is essential to securing NARA’s network
environment and data because it enables timely analysis and resolution of the incident
before further harm is done to the network. In addition, credit requests for these unmet
SLAs were not made, and the Designated Agency Representatives (DARs) were not able
to provide specific information on how to submit a credit request for this type of unmet
AQL, or what credit amount would be due to NARA.



                                        Page 16
                     National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


According to the Networx SLA Management Guide, if the contractor fails to meet any of
the KPIs for an SLA for a given month, the agency is entitled to a credit of 12.5% of the
Monthly Recurring Cost (MRC), and 25% and 50% of the MRC for the second and third
consecutive months for which the SLA was not met. We found from the contractor’s
summaries of services that the MRC for Managed Firewall Service for the months of
April and May 2012 was $2,056.55. Thus the credit amount for these unmet SLAs is
estimated to be $2,056.55 x (12.5% + 25%) = $771.21, which could have been put to
better use. Also, NARA might have been entitled to potential, additional credit if: (1) the
actual performance values of the MTIPS – Transport Collection and Distribution SLA
were properly populated on the Monthly Compliance Reports; (2) NARA had been
reviewing the Monthly Compliance Reports and monitoring the contractor’s performance
on the SLA; and (3) any unmet AQLs were identified and notified to the contractor.
However, as the actual performance values for the SLA were not included on the
Monthly Compliance Reports and NARA did not independently track the actual
performance values, we were unable to determine the amount of the potential lost credit.

Recommendations

We recommend NARA’s Chief Information Officer:

   5.	 Develop a comprehensive quality assurance surveillance plan that includes the
       services provided by the contract, surveillance methods for each service, and
       designation of the surveillance/monitoring duties to appropriate individuals or
       offices.
   6.	 Develop a comprehensive method to verify that the actual performance data
       included on the contractor’s Monthly Compliance Reports is complete and
       accurate for each service provided by the contractor.
   7.	 Develop a comprehensive process to ensure SLA credits are requested in a timely
       manner by designated individuals at NARA, and to verify whether the amount of
       credit received is accurate based on the SLA type and number of consecutive
       months the SLA miss occurred.
   8.	 Request corrected Monthly Compliance Reports including the actual performance
       values for all services NARA procured from the contractor for the last six months,
       review the reports to determine whether there were any unmet SLAs for which
       NARA would be entitled to a credit, and request the identified credit(s), if any, in
       accordance with the contract.
   9.	 Create a process to ensure information pertinent to performance of the contract,
       including agreed-upon procedures for securing the network, is properly
       communicated to and from the contractor and among the individuals at NARA
       whose job responsibilities require attention to such information.

                                        Page 17
                     National Archives and Records Administration
                                                             OIG Audit Report No. 13-12


   10. Perform a cost-benefit analysis for enabling the intrusion prevention option for
       the network-based IDPS.
   11. Evaluate the rule sets of the IDPSs for NARA’s network on a periodic basis to
       ensure proper rules have been selected and enabled to effectively detect and
       prevent intrusive attacks.

Management Response

Management concurred with the recommendations.

3. Improvement is Needed on Incident Response, Reporting,
   and Training

Overall, NARA’s computer incident response and reporting appeared to be operating
effectively. NARA’s Computer Incident Response Team (CIRT) and the TIC provider’s
Security Operations Center (SOC) make collective efforts to detect, prevent, resolve, and
report computer security incidents. We judgmentally selected a sample of 80 security
incidents opened from October 2011 through October 2012. We then reviewed the
incident reports in NARA’s incident management system, email communications from/to
US-CERT regarding the incidents, and made inquiries as necessary with the NARANet
ISSO to obtain more details on the incidents. The majority of the computer security
incidents sampled were entered in the incident management system and brought to the
CIRT’s attention in a timely manner, correctly categorized into the US-CERT-specified
incident categories, and resolved through the appropriate resolution process.

Opportunities for improvement do exist in the management and monitoring process for
incident response, reporting incidents to US-CERT, and providing the CIRT team with
internal and/or external training on incident response. We also found control
enhancement is needed to appropriately handle paper disclosure of personally identifiable
information (PII). The following are issues we identified in these areas, which are
discussed in more detail in the next sections:

   1) 60 of the 80 sampled incidents (75%) were not reported to US-CERT within the
      specified timeframes.
   2) The resolution process for a number of incidents included unjustified time gaps
      ranging from one month to over one year.
   3) Incident response training and exercises had not been conducted on a periodic
      basis to keep the staff up to date with the most recent patterns of cyber attacks and
      remediation methodologies.

                                        Page 18
                     National Archives and Records Administration
                                                                         OIG Audit Report No. 13-12


     4) In case of a paper PII disclosure, there is no process ensuring copies of the 

        documents containing PII are properly disposed of or returned. 


These issues existed because the policies and procedures on incident response, reporting,
and training are not clearly defined, effective, or properly followed. As a result, NARA
may be at risk of: (a) not being able to promptly and effectively resolve and/or report
incidents to minimize the impact within the Agency and across the government
environment; and (b) allowing inappropriate access to and use of the PII disclosed to an
unintended user.

Untimely Reporting of Incidents to US-CERT

US-CERT specifies the timeframes within which a computer security incident should be
reported to US-CERT. They vary between one hour and one month from discovery,
depending on the category and severity of the incident. For example, Category 3,
Malicious Code events should be reported daily or within one hour of discovery if the
event is widespread across the agency. Reports of computer incidents should include a
description of the incident or event using the appropriate taxonomy. They should also
include as much of the following information as possible: agency name, point of contact,
incident category type, incident date and time, source and destination IPs, and operating
system. However, reporting should not be delayed to gain additional information.10

Of the 80 sampled incident reports and their corresponding email communications
from/to US-CERT, only 19 incidents were reported to US-CERT within the specified
timeframes. These were comprised of Categories 3, 4, and 5 incidents and Disclosure of
PII.11 Only one of the 61 Category 3, Malicious Code events in the sample was reported
to US-CERT within the suggested 24 hours of discovery. Of the rest, 58 incidents were
reported between two and 39 days past the timeframe, one incident was reported 158
days past the timeframe, and one incident was re-categorized into a non-reportable event.
Also, there was one incident initially categorized as a Category 6, non-reportable
incident, which was then re-categorized into Category 3. This incident was then reported
398 days past the suggested timeframe for Category 3 incidents. Overall, the late
reporting was caused by one or more of the following:




10
  http://www.us-cert.gov/government-users/reporting-requirements
11
  Disclosure of PII events are reported to US-CERT using various incident categories depending upon the
nature and method of the disclosure. Our sample contained a total of 14 PII disclosure incidents, and one of
the incidents was a computer-based, Category 4 incident and the rest were paper-based, Category 6
veteran/civilian PII disclosure incidents caused by sending incorrect documents to the recipients.
                                            Page 19
                         National Archives and Records Administration
                                                                             OIG Audit Report No. 13-12


     1) The incident resolution process had a lag time between steps (for example, from
        completion of malware scanning on the infected machine to re-baselining it to the
        original state and/or from resolution of the incident to reporting it to US-CERT).
     2) NARA generally attempted to gather more comprehensive information about the
        incident before the report was sent to US-CERT.
     3) Security incident tickets, opened and closed, had not been reviewed on a regular
        basis to determine whether appropriate actions had been taken to successfully
        resolve the incident and report it to US-CERT in accordance with the guidelines.

For example, for the incident reported 158 days past the suggested timeframe, we found it
was first submitted into the incident management system on February 23, 2012, for a
potentially infected workstation. The vulnerability assessment was not completed until
March 9, 2012. Then there was an approximately 3-month gap between the date of
vulnerability assessment completion, and scheduling of a re-baselining of the workstation
on June 19, 2012. The NARANet ISSO was unable to recall what happened between
these two dates. In addition, another gap existed between the completion of re-baselining
the workstation and reporting it to US-CERT, which was not done until July 31, 2012.

Another example reviewed was from an incident initially categorized as a non-reportable,
Category 6, Investigation event which was later re-categorized into a Category 3,
Malicious Code event, according to the NARANet ISSO.12 This event was detected and
brought to NARA’s attention by the Security Operations Center of the TIC contractor on
November 7, 2011, and involved                                             Although the
host was scanned for viruses, re-imaged, and redeployed within three days of the initial
detection, the incident was not reported to US-CERT until December 10, 2012, which
was 398 days past the suggested reporting timeframe for Category 3 incidents. According
to the NARANet ISSO, this occurred because the helpdesk technician incorrectly closed
the incident ticket, which was reopened during a review of the open and resolved security
tickets.

US-CERT’s mission is to improve the nation’s cybersecurity posture, coordinate cyber
information sharing, and proactively manage cyber risk to the nation. As such, untimely
reporting of the incidents may prevent US-CERT and other investigative agencies from
promptly investigating the incident to minimize the impact across the government
environment.




12
  The list of the incident reports provided did not reflect the later re-categorization; therefore, this
remained as a Category 6 incident in our sample.
                                              Page 20
                           National Archives and Records Administration
                                                               OIG Audit Report No. 13-12


Training and Exercises Not Provided on a Periodic Basis

NARA’s Enterprise Architecture requires that the NARA system owner or ISSO shall
train personnel in their incident response roles and responsibilities with respect to the
information system, and provide refresher training at least annually. According to NIST
Special Publication 800-61 Rev. 2, the incident response team members need much
broader knowledge than most IT staff members because they work with many facets of
IT, and they must understand how to use the tools of incident response. In Mandiant’s
Incident Response Program Enhancement Gap Analysis conducted in 2010, Mandiant
found several members of the NARA group had indicated they do not have a consistent
approach to addressing incidents from one person to another. Instead, the individuals’
knowledge dictated how each person would approach any particular investigation.
Mandiant recommended one or more simple exercises should be scheduled to allow the
participants to practice collecting data, analyzing data, and developing a
recovery/remediation plan.

We found that, although it is required in NARA’s Enterprise Architecture, the annual
training or exercises on incident response had not been provided to the individuals who
perform or support computer security incident handling. According to the Senior IT
Security Specialist, the last exercise on incident response was conducted by Mandiant in
June 2010, and other in-house exercises had not been conducted since then. This occurred
because, although there is a policy to conduct the training on an annual basis, the process
to ensure the trainings and exercises are conducted as required had not been established.
Further, according to the CISO, although most CIRT members occasionally attend
external training to maintain their certifications, there is no formalized policy at NARA
requiring CIRT members attend training on matters related to cyber attacks and
remediation measures.

As cyber attacks evolve and the patterns of attacks change over time, it is important to
ensure the individuals performing intrusion detection and incident response are
adequately trained on how to detect and handle the incidents more effectively and
efficiently. Failure to keep the staff updated, refreshed, and trained on the attack/incident
types/patterns and handling them may result in: (1) a potential attack going undetected or
only partially detected; and (2) the detected attack not being mitigated fully and timely
before it has substantial impact to the host(s) and network.

      . According to the CISO, NARA’s network-based intrusion detection system
NIDS provided by the TIC contractor



                                         Page 21
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


                 Later, Mandiant was contracted to perform a threat assessment for the
APT events and discovered

Recommendations

We recommend NARA’s Chief Information Officer:

   12. Ensure the preliminary reporting of all incidents and events reportable to US-
       CERT is made within the US-CERT-specified timeframes. Further details on the
       incident or event gathered after the original reporting should be communicated to
       US-CERT as an update, rather than delaying the original reporting to gather
       information.
   13. Ensure the resolution process for a computer incident is appropriately monitored
       and reviewed on a timely and periodic basis to minimize erroneously closed
       incident tickets and the unnecessary time gaps between the resolution steps.
   14. Ensure incident response tabletop exercises are conducted for staff performing
       and/or supporting computer security incidents on at least an annual basis, and
       practical and relevant topics to NARA’s computing environment are covered
       within the exercises.
   15. Develop a policy for CIRT members to take training at least on an annual basis to
       ensure they remain up to date with current patterns/types of cyber attacks and
       effective, efficient incident remediation methodologies.

Management Response

Management concurred with the recommendations.

4. Physical Security of the IDS Devices Needs Improvement

During this audit, we visited three data center/computer room facilities including the
computer room at Archives II, and two of the TIC contractor’s data centers in Sterling,
VA, to observe the physical security of the intrusion detection and prevention devices.
The management server and database server for the centralized HIPS and anti-virus
management system were hosted in the computer room at Archives II, and the inner and
outer firewalls for the network were located in the contractor’s data centers, one in each
location. To assess the physical security and environmental safety controls for these
facilities and the IDS devices in them, we primarily used the controls found in NIST
Special Publication 800-53. In addition, we used SANS Institute’s Data Center Physical
Security Checklist, dated December 1, 2001, as a reference to determine the controls to
be assessed for each data center facility. For the contractor’s data centers, we reviewed a

                                         Page 22
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


number of reports prepared by third-party independent assessors, including DHS’s
CyberSecurity Capability and Compliance Validation reports and the SSAE No. 16 Type
II reports prepared by an independent public account firm. Inquiries were also made with
both the NARA and contractor individuals to obtain necessary information and
supporting documents.

The physical security and environment controls at the contractor’s data centers appeared
to be adequately designed and operating effectively in accordance with NIST Special
Publication 800-53 in areas including: (1) securing monitoring the centers and the IDS
devices; (2) physical access authorization and review; (3) visitor access controls; (4) fire
suppression and water leakage controls; (5) temperature and humidity controls; and (6)
storage of backup tapes. NARA also had some excellent controls in securing and
safeguarding the computing equipment within the computer room at Archives II
including the use of locked cabinets for its computer equipment, monitoring of the
computer room through surveillance cameras, temperature and humidity controls, and fire
suppression. However, we noted opportunities exist to better secure and safeguard
NARA’s computing equipment from inappropriate access, destruction, theft, or
unavailability. Specifically, the following conditions exist for the Archives II computer
room, and are expanded upon below:

      The physical access list is not reviewed on a periodic basis.
      The visitor log is not reviewed on a periodic basis.
      Cables within the cabinets are poorly organized and unlabeled.

These conditions exist because NARA had not always followed the policies documented
in the Enterprise Architecture, the security controls recommended in NIST Special
Publications including 800-53, or the specific policies and procedures for certain controls
had not been fully developed and documented. As a result, NARA’s computing
equipment in the Archives II computer room may be at risk of: (1) inappropriate and
unauthorized use; and (2) theft, destruction, damage, or unavailability.

Physical Access Review Not Performed on a Periodic Basis

NARA’s Enterprise Architecture states, in accordance with the Physical and
Environmental Protection (PE) control family of NIST Special Publication 800-53, that
the NARA Space and Security Management Division shall review and approve the
physical access list and authorization credentials. Personnel no longer requiring access
are to be removed. This must be done within the frequency defined in the System
Security Plan (SSP) for unclassified information systems, or at least annually for
classified information systems. According to the NARANet ISSO, although the physical
                                         Page 23
                      National Archives and Records Administration
                                                              OIG Audit Report No. 13-12


access review has been performed at least annually since 2010, there is no documented
process for conducting the review. Based on the supporting documents provided, the two
most recent reviews prior to this audit were conducted in August 2010 and March 2011.
Another review was conducted during this audit in November 2012, as a response to our
request for a copy of the physical access list. In this review, management found three
individuals who were granted access to the computer room by clerical errors.

NARA’s centralized HIPS and anti-virus management system is an unclassified
subsystem within NARANet, according to the NARANet ISSO. Although NARA’s
Enterprise Architecture requires physical access reviews within the frequency defined by
the SSP, the SSP for neither the NARANet GSS Application Servers nor the Common
Controls defined the frequency. Not having documented, specific procedures for
reviewing the physical access list may lead to: (1) failure to review the list on a regular
basis; (2) access granted due to clerical or systematic errors going undetected; (3)
individuals no longer requiring access not being removed from the list in a timely
manner; and (4) data damage, loss, or manipulation caused by (2) or (3) above.

Visitor Log Not Reviewed

NARA’s Enterprise Architecture states, in accordance with the Physical and
Environmental Protection (PE) control family of NIST Special Publication 800-53, the
NARA Space and Security Management Division shall review visitor access records.
This must be done within the SSP-defined frequency for unclassified information
systems, and at least every 90 days for classified information systems. NARA maintains a
visitor log book at the front desk of the computer room at Archives II. However, the SSP
for neither the NARANet GSS Application Servers nor the Common Controls defined a
frequency for review of the log. According to the NARANet ISSO, there is not a process
to review visitor logs periodically.

As of December 4, 2012, there were 26 entries filled out by the visitors from July 21,
2012 through December 3, 2012. However, not all of the entries included all the required
information. For example, three entries were missing the dates of visits, seven were
missing a NARA contact person, four were missing the NARA organization, 13 were
missing reasons for the visits, and seven were missing the exit times. Additionally,
although the log book instructs visitors to include detailed reason for the visit and not to
write “work,” 10 of the entries only included generic descriptions as “server” or
“service.” Incomplete and/or inaccurate information regarding the visit may lead to less
auditability in the event of unauthorized or inappropriate access to the equipment and any
consequences, including destruction or removal of the equipment and data spoilage.


                                         Page 24
                      National Archives and Records Administration
                                                             OIG Audit Report No. 13-12


Improvement Opportunities in Cable Management

NIST Special Publication 800-53 recommends employing clearly identified and
physically separated cable trays as a control enhancement to protect against unauthorized
physical connections. The Network Discovery and Assessment Report completed by
IMRI in August 2012 revealed NARA did not tag cables so that the network
administrator would be able to determine the source and destination of every cable
attached to a switch or server. We inspected the back of NARA’s centralized HIPS and
anti-virus management database servers and found the cables connected to the servers
were unlabeled and poorly organized without any cable ties (see Figure 1: Back of the
HIPS and anti-virus Management and Database Servers below). The unlabeled and
poorly organized cables may result in: (1) diminished productivity by not being able to
quickly identify the source and destination of each cable; (2) damage to the cables
causing unavailability of the service; and (3) the cables being frayed, exposing energized
wires, causing a fire hazard.




   Figure 1: Back of the HIPS and Anti-virus Management and Database Servers


                                        Page 25
                     National Archives and Records Administration
                                                           OIG Audit Report No. 13-12


Recommendations

We recommend NARA’s Chief Information Officer:

   16. Fully develop and document a process for reviewing the list of individuals with
       access to systems hosted in NARA’s computer rooms, define the frequency of the
       review in accordance with system categorization and availability requirements,
       and ensure the frequency is properly documented in the system’s SSP.
   17. Fully develop and document the process for reviewing visitor logs for NARA’s
       computer rooms, including clearly defined review frequencies and assignment of
       the duties to appropriate individuals for performing, reporting, and acting upon
       the review (when corrective/investigative actions are needed).
   18. Fully develop and document the policies and procedures for a cable management
       system, including labeling, using proper cable ties and/or trays, and periodic
       inspection of the cables, for the HIPS and anti-virus management system.

Management Response

Management concurred with the recommendations.




                                       Page 26
                    National Archives and Records Administration
                                                OIG Audit Report No. 13-12


Appendix A – Acronyms and Abbreviations
AC        Access Control
APT       Advanced Persistent Threat
AQL       Acceptable Quality Level
CIRT      Computer Incident Response Team
CISO      Chief Information Security Officer
CMRS      Case Management and Reporting System
COTS      Commercial Off-the-shelf
DoS       Denial of Service
DDoS      Distributed Denial of Service
DHS       Department of Homeland Security
ERA       Electronic Records Archives
GSA       United States General Service Administration
GSS       General Support Services
HIPS      Host Intrusion Prevention System
HTTPS     Hypertext Transfer Protocol Secure
IA        Identity and Authentication
IDS       Intrusion Detection System
IDPS      Intrusion Detection and Prevention System
IP        Internet Protocol
IPS       Intrusion Prevention System
ISSO      Information System Security Officer
KPI       Key Performance Indicator
MPLS      Multiprotocol Label Switching
MTIPS     Managed Trusted Internet Protocol Service
NARA      National Archives and Records Administration
NIDS      Network-based Intrusion Detection System
NIST      National Institute of Standards and Technology
NITTSS    NARA Information Technology and Telephone Support Services
NOC       Network Operations Center
NPRC      National Personnel Records Center
OFAS      Order Fulfillment and Accounting System
PE        Physical and Environmental Protection
PII       Personally Identifiable Information
RCPBS     Records Center Program Billing System
SLA       Service Level Agreement
SOC       Security Operations Center
SSP       System Security Plan
TCP       Transmission Control Protocol
TIC       Trusted Internet Connections
US-CERT   United States Computer Emergency Readiness Team
UTM       Unified Threat Management
VLAN      Virtual Local Area Network


                              Page 27
           National Archives and Records Administration
Appendix B - Management’s Response to the Report 





    L NATIONAL
      ARCHIVES



          Date:                  SEP. 0 5 2013
          To:                James Springs, Acting Inspector General
          From:              DavidS. Ferriera, ArchMst of the United States
          Subject:      DRAFT OIG Report 13-12, Audit of NARA's Intrusion Detection and Prevention
          Systems and Incident Response (IDS)


          Thank you for the opportunity to review ttle subject draft report. We appreciate your time in
          reviewing our informal comments and making some clarifying adjustments.

          We concur with each of the 18 recommendations and will address them further in our action
          plan. If you have any questions about this response, please contact Mary Drak at 301-837-
          1668 or at mary.drak@nara.gov.




       ~L~Archivist of the United States




     NAT I ONA L ARCH I VES and
     RECORDS ADM I NIS T R .~T I ON

        860 1 ADElPHI ROAD
     COLLEm PARK. MD 20740-600 1
           www.archfves . go~·
                                                          OIG Audit Report No. 13-12


Appendix C - Report Distribution List


Archivist of the United States
Deputy Archivist of the United States
Chief Information Officer
Chief Operating Officer




                                        Page 29
                     National Archives and Records Administration
